<html>
<title> - SIX YEARS LATER (PART III): INNOVATIVE APPROACHES TO COMBATING TERRORISTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
    SIX YEARS LATER (PART III): INNOVATIVE APPROACHES TO COMBATING 
                               TERRORISTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2008

                               __________

                           Serial No. 110-183

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
51-567                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
------ ------
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 14, 2008................................     1
Statement of:
    Meese, Colonel Michael J., Ph.D., professor and head of the 
      Social Sciences Department at the U.S. Military Academy, 
      West Point; Angel Rabasa, Ph.D., senior policy analyst, 
      Rand Corp.; Amitai Etzioni, Ph.D., University professor, 
      George Washington University; and Daniel L. Byman, Ph.D., 
      director, Center for Peace and Security Studies, Georgetown 
      University.................................................     5
        Byman, Daniel L..........................................    43
        Etzioni, Amitai..........................................    32
        Meese, Colonel Michael J.................................     5
        Rabasa, Angel............................................    16
Letters, statements, etc., submitted for the record by:
    Byman, Daniel L., Ph.D., director, Center for Peace and 
      Security Studies, Georgetown University, prepared statement 
      of.........................................................    46
    Etzioni, Amitai, Ph.D., University professor, George 
      Washington University, prepared statement of...............    35
    Meese, Colonel Michael J., Ph.D., professor and head of the 
      Social Sciences Department at the U.S. Military Academy, 
      West Point, prepared statement of..........................     8
    Rabasa, Angel, Ph.D., senior policy analyst, Rand Corp., 
      prepared statement of......................................    18


    SIX YEARS LATER (PART III): INNOVATIVE APPROACHES TO COMBATING 
                               TERRORISTS

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Yarmuth, Van 
Hollen, Welch, Duncan, and Marchant.
    Staff present: Dave Turk, staff director; Davis Hake, 
clerk; Andy Wright, professional staff member; Christopher 
Bright and Janice Specter, minority professional staff members; 
A. Brooke Bennett, minority counsel; Mark Lavin, minority Army 
fellow; Todd Greenwood, minority legislative assistant; and 
Jeanne Neal, minority intern.
    Mr. Tierney. I want to thank all of you for coming here 
this morning. I also want to thank all of our witnesses for 
being with us this morning, for all preparation in advance and 
sharing your opening statements with us as well.
    A quorum is present, so the Subcommittee on National 
Security and Foreign Affairs hearing entitled, ``Six Years 
Later (Part III): Innovative Approaches to Combating 
Terrorists,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, that is so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee can be allowed to submit a written statement for 
the record. Without objection, that is so ordered.
    I am going to start with a brief opening statement on the 
record. Mr. Marchant will also have the opportunity to present 
one as well. Then we will go to questions, 5-minute rounds of 
each of the witnesses. Some of you have testified before, and 
you know the drill. We will be as lenient as we can be on the 
5-minutes without going too far along. We would like to get to 
some questions and answers. I think that is the best way to 
elicit information.
    Before we start today, I want to take just one moment to 
have a moment of silence for our friend and colleague, Tom 
Lantos, who not only was a member of the full Committee on 
Oversight and Government Reform, but also was a member of this 
subcommittee. He had an incredibly distinguished service in 
Congress for many, many years, including as chairman of the 
Foreign Affairs Committee as well. He also served as ranking 
member for many years and had an admirable life. If we could 
just take one moment, a moment of silence, please.
    [Moment of silence observed.]
    Mr. Tierney. Thank you.
    Tom Lantos always had such a record on human rights. I 
think one of the pleasures of being in Congress is being around 
somebody like that, that comes with such passion from their 
heart to stand up and address the floor on those issues. I hope 
that we can do no better honor to him than having a good 
hearing this morning and get the information I know he would 
have wanted people to become aware of.
    This hearing marks our third in a series of hearings 
focused on long-term U.S. national security strategy more than 
6 years after September 11th.
    We are very fortunate to have such a distinguished group of 
witnesses here this morning. They are on the cutting edge of 
understanding the best way to deal with Al Qaeda or other 
groups associated with terrorists, as we move forward.
    Since September 11, 2001, we have struggled to develop a 
coherent and effective national security strategy to defeat the 
global jihadist movement that is most closely symbolized by Al 
Qaeda but certainly not restricted to them.
    Notwithstanding the U.S.' counter-terrorism efforts, the 
lives lost, and the vast amounts of resources and money 
expended, our intelligence community recently reported an 
alarming resurgence and strengthening of Al Qaeda. A July 2007 
national intelligence estimate stated very clearly that Al 
Qaeda had ``protected or regenerated key elements of its 
Homeland attack capability, including: a safe haven in 
Pakistan's Federally Administered Tribal Areas [FATA], 
operational lieutenants, and its top leadership.''
    These are troubling findings, obviously, and they were 
reaffirmed just last week in congressional testimony by Mike 
McConnell, the Director of National Intelligence, and General 
Michael Hayden, the Director of Central Intelligence. According 
to Director McConnell, Al Qaeda is ``gaining strength from its 
refuge in Pakistan and is steadily improving its ability to 
recruit, train and position operatives capable of carrying out 
attacks inside the United States.''
    One of the most constructive roles this oversight committee 
can play in this generational struggle is to continuously 
assess performance and strategy and to explore emergent 
thinking and analysis in combating international terrorism.
    The cold war called on us to bring forth the best 
innovators from every segment of society. The same effort has 
been lacking, unfortunately, since September 11th. Over these 
last years, I have been critical, and I think others have as 
well, of the administration for its failure to fully engage the 
public, including our wealth of resources among academic 
researchers, international business people, non-governmental 
organizations, educators and technical leaders, in this vital 
effort.
    Our country's strength has always been characterized by our 
unique mix of optimism, pragmatism, creativity, work ethic and 
true grit that has led to our great engine of innovation. And 
now we need to focus this ingenuity squarely on the task of 
defeating Al Qaeda and other terrorists. Today we will try to 
highlight some of the best of this emergent thinking and 
analysis.
    First, unlike the cold war, do we not face a threat posed 
by a competing superpower. Instead, we are fighting loose 
networks of terrorist cells willing to fight unconventional 
warfare, including declaring open season on civilians. Today, 
based on documents captured on the battlefield, we will explore 
sophisticated analyses of the potential vulnerabilities of Al 
Qaeda's networked organizational structure.
    Second, Al Qaeda, its affiliates, and copycats thrive in 
environments with the absence of government as well as 
sympathetic local populations. We have spent several hearings 
focused on the troubling phenomenon in Pakistan's tribal ares, 
and today we will more fully explore the nature of these 
ungoverned spaces and the best way to drain these swamps.
    Third, Al Qaeda and the other jihadists benefit from 
widespread anti-Western sentiment across the Muslim world. 
Despite increased resources on public diplomacy in the Muslim 
world, poll after poll continues to show abysmal levels of 
anti-American sentiment. Today we will explore new approaches 
in thinking on how best to fight the war of ideas in the Muslim 
world.
    I look forward to engaging in this enlightening--and 
overdue--discussion. Again, I welcome and thank our witnesses 
and ask Mr. Marchant if he would care to make an opening 
statement.
    Mr. Marchant. Thank you, Mr. Chairman. Thank you for 
continuing the examination of our national strategies.
    As you know, this subcommittee has been investigating U.S. 
national security strategies since 2001. I am pleased that we 
are continuing this important work, and focusing now on the 
public enemy No. 1: Osama bin Laden. Osama bin Laden's 
organization, Al Qaeda, existed before September 11, 2001. 
Unfortunately, prior to that fateful day, the U.S. Government 
did not have an adequate terrorist threat assessment or a 
coordinated strategy to deal with the threat, and our 
Government was not properly organized to counter terrorism.
    We are still locked in a war against a fanatical enemy, 6 
years and 5 months from the day which defined our generation. 
Our brave men and women are in harm's way and are deployed 
around the world, trying to prevent further attacks on our 
Nation. We thank them and their families for their sacrifice.
    One of our greatest Presidents, Ronald Reagan, understood 
extremists such as Al Qaeda. He knew they had political goals 
and strategic ambitions. President Clinton believed terrorism 
to be a law enforcement matter. After September 11, 2001, the 
United States decided to confront terrorism and engage in a 
combat against those who oppose peace and security. This was 
the day we placed our military on the front lines.
    The facts show that we have been doing something right. Has 
it been perfect? No. Can more be done and changes be made to 
adapt and confront these fanatics? Absolutely. It has been said 
repeatedly, we must get more than our military involved. We 
need to accelerate the diplomatic effort and consider every 
consequence before committing U.S. forces to combat.
    This subcommittee has held multiple hearings that explored 
the development of a comprehensive strategy to address the 
security threats that we face as a Nation. We have heard 
frequently that we rely too much on military power, and have 
neglected traditional instruments of soft power. Today, we will 
hear how to focus these efforts against such known enemy 
organizations. We will hear how to combat terrorist 
organizations in order to exploit weakness.
    What we will see is that their weakness is neither easily 
measured nor exploitable with military might alone. Our enemies 
can and will be defeated. It will take time and dedication, but 
we will prevail. As we have seen in Iraq, the world will rebel 
against Al Qaeda for their brutality and lack of restraint 
against innocent people in all countries. As reported 
yesterday, the U.S. military's strict rules of engagement 
underscore a sharp contrast between its conduct and that of Al 
Qaeda.
    The American soldier carries the banner of freedom for the 
United States. General Petraeus' spokesman said this plainly 2 
days ago when he asked, ``where else do we see a soldier, 
sailor, airman or marine fight incredibly hard 1 minute and 
then show the greatest depths of compassion the next, against 
those they are trying to protect as well as those they have 
just fought against?``
    History has shown the world that the United States offers 
the idea that everyone is bestowed with inalienable rights. The 
protection of these rights rests with the government of the 
people. The specifics of the structure of the government must 
be determined by the people and unique to their culture. A 
government must protect the rights of its people and the 
sovereignty of its neighbors. In such a world, in which free 
people choose their governments under a blanket of security, 
there is no place for extremism and an organization like Al 
Qaeda.
    With this in mind, Mr. Chairman, I look forward to the 
testimony from our distinguished witnesses and thank each of 
them for being here today.
    Mr. Tierney. Thank you, Mr. Marchant.
    I would like to begin by introducing our witnesses. Today 
we welcome Colonel Michael J. Meese, or Dr. Meese, whichever he 
prefers, Professor and Head of the Social Sciences Department 
at the U.S. Military Academy at West Point. Colonel Meese is 
also co-author of ``Harmony and Disharmony: Exploiting Al 
Qaeda's Organizational Vulnerabilities,'' published by West 
Point's Combating Terrorism Center.
    Angel Rabasa, Ph.D., senior policy analyst at the RAND 
Corp. and co-author of ``Ungoverned Territories: Understanding 
and Reducing Terrorism Risks.''
    Amitai Etzioni, a Ph.D. as well, University professor at 
George Washington University and author most recently of 
``Security First for a Muscular, Moral Foreign Policy.''
    And Dr. Daniel L. Byman, Ph.D., director of the Center for 
Peace and Security Studies at Georgetown University. Professor 
Byman is also a former staff member of the 9/11 Commission and 
author of the recently published book, ``The Five Front War: 
The Better Way to Fight Global Jihad.''
    I want to welcome all of you good doctors with us here this 
morning. It is the policy of the subcommittee to swear all our 
witnesses before you testify, so I will ask you to please stand 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all 
indicated in the affirmative.
    Again, we ask you to keep your statements, if you can, 
reasonably to within 5 minutes. I had the opportunity last 
night to read your statements, and I can't imagine that most of 
those statements would be done in 5 minutes. So you might try 
to give us a little synthesis of that, if you would. We would 
love to get some questions in as well.
    Dr. Meese, why don't we start with you.

 STATEMENTS OF COLONEL MICHAEL J. MEESE, PH.D., PROFESSOR AND 
  HEAD OF THE SOCIAL SCIENCES DEPARTMENT AT THE U.S. MILITARY 
    ACADEMY, WEST POINT; ANGEL RABASA, PH.D., SENIOR POLICY 
    ANALYST, RAND CORP.; AMITAI ETZIONI, PH.D., UNIVERSITY 
 PROFESSOR, GEORGE WASHINGTON UNIVERSITY; AND DANIEL L. BYMAN, 
    PH.D., DIRECTOR, CENTER FOR PEACE AND SECURITY STUDIES, 
                     GEORGETOWN UNIVERSITY

             STATEMENT OF COLONEL MICHAEL J. MEESE

    Colonel Meese. Thank you very much, Chairman Tierney, 
Representative Marchant, distinguished members of the 
committee. It is an honor for me to be here to address this 
important topic, and I will try to summarize my statement and 
ask that it be put into the record.
    Within the Department of Social Sciences at the U.S. 
Military Academy, the Combating Terrorism Center at West Point 
has a unique, critical and innovative approach to 
understanding, teaching and contributing to terrorism policy. I 
should note that, while I am proud to represent the Center, our 
new distinguished Chair, General Retired John Abizaid, who now 
works at West Point, I should note that these remarks are my 
own and not necessarily those of the Army or any other agency 
of Government.
    While some have said that this war against Al Qaeda and 
other terrorists is new, and old lessons don't apply, in 
reality I think there are many aspects of this war that are 
very similar. For example, the President said, ``We face a 
hostile ideology, global in scope, ruthless in purpose and 
insidious in method. Unhappily, the danger it poses promises to 
be of indefinite duration.'' While that could have been 
President Bush talking about Al Qaeda, it was actually 
President Eisenhower describing the communist threat.
    As Eisenhower was President when the last long war started, 
it is important to recognize four key similarities with the 
current struggle against Al Qaeda. First, as was mentioned in 
both of the opening statements, this is not just a military 
war. Like the cold war, it is also, and perhaps more 
importantly, intellectual and ideological. Second, it is 
absolutely essential that we understand the enemy. Third, as in 
the cold war, it will take all of the resources of this Nation 
to engage with the enemy, not just the Armed Forces.
    That is where the Combating Terrorism Center comes in. We 
are both a military and an academic institution. We can play 
and have played a critical role linking academics that may or 
may not be willing participants supporting the kinds of causes 
that the Government does as well as military organizations that 
are not used to working with academic institutions. I like to 
call that linking the dot.mil address with the dot.edu 
addresses.
    Fourth, we must concentrate our efforts against the core of 
the enemy, the ideas of the radical jihadists that enable Al 
Qaeda to spread even after its leaders are captured or killed. 
With this brief description of the war as I see it, let me now 
describe what we are doing to engage in a strategic and 
intellectual war against terrorists. We have employed some of 
the best experts in academia to study Al Qaeda's own writings. 
We are truly trying to do what the title of one of our first 
publications said, steal Al Qaeda's playbook by reading what 
they have written.
    We also leveraged the great repository of information that 
has been captured from terrorists. Captured documents in the 
Defense Intelligence Agency's Harmony database. By linking the 
intelligence finds on the battlefield with the academic 
scholars, we can understand the enemy, identify the weaknesses 
and its organization and ideology and expose its hateful, 
extremist world view.
    Our Harmony series of reports, which several of you have, 
and you see before you, includes in the first part of it, our 
analysis in part 1, which is a very good academic argument with 
lots of footnotes and that kind of thing. What is more 
important is part 2, where we actually present the captured 
documents in English and Arabic forms, so that other scholars 
from other academia can engage and study those documents and 
propel the intellectual study of terrorism forward.
    I have references to the specific documents in my testimony 
and I would encourage anybody who's interested in them to go to 
our Web site, ctc.usma.edu. We have found that ``a'' is very 
frank in their documents and candid about their strengths and 
vulnerabilities. By reading them, we have great success. Last 
May, we had an unlikely confirmation that we were effective 
from actually Ayman al-Zawahiri, the No. 2 leader in Al Qaeda, 
when he released his video tapes. Hopefully, this will play and 
I will speak over the tape just a little.
    [Video shown.]
    Colonel Meese. This is Zawahiri's video tape. He actually 
cropped our symbol from our Web site and is reading from one of 
our reports where we talked about strategies to encourage 
moderate, mainstream Salafis. He decries what we are saying to 
do.
    He is citing it, the graphics are actually very good, too. 
So what we see is the No. 2 leader in Al Qaeda reading our 
writings. That is a good indication, the fact that this 
subcommittee is reading our writings is also a good indication. 
And as we see it, if more people in and out of Government can 
take a look at what Al Qaeda is saying for themselves, we will 
all be better off and understand them better.
    Thanks to farsighted West Point graduates like Vinnie 
Viola, George Gilmore and others whose private funding 
established the Combating Terrorism Center and those in Special 
Operations Command who support our research, we have been able 
to understand, analyze and ultimately counter the ideology of 
Al Qaeda. Douglas MacArthur told the Corps of Cadets at West 
Point that their mission is to win our Nation's wars. At the 
Combating Terrorism Center, we strive to link the scholars and 
the warriors to understand terrorists and exploit that 
knowledge to help defeat the enemy.
    We will continue to do everything that we can to equip our 
graduates so that they will always be able to win our Nation's 
wars.
    I look forward to answering your questions.
    [The prepared statement of Colonel Meese follows:]

    [GRAPHIC] [TIFF OMITTED] T1567.001
    
    [GRAPHIC] [TIFF OMITTED] T1567.002
    
    [GRAPHIC] [TIFF OMITTED] T1567.003
    
    [GRAPHIC] [TIFF OMITTED] T1567.004
    
    [GRAPHIC] [TIFF OMITTED] T1567.005
    
    [GRAPHIC] [TIFF OMITTED] T1567.006
    
    [GRAPHIC] [TIFF OMITTED] T1567.007
    
    [GRAPHIC] [TIFF OMITTED] T1567.008
    
    Mr. Tierney. Thank you, Colonel.
    Dr. Rabasa, would you please give us a statement as well?

                   STATEMENT OF ANGEL RABASA

    Mr. Rabasa. Yes, thank you, Mr. Chairman.
    First of all, I would like to thank you, the ranking member 
and the subcommittee, for inviting me to testify at this 
hearing. The subject of my presentation is the security 
problems posed by ungoverned territories and what could be done 
to address them.
    This is a subject of a RAND Corp. study that came out 
recently. It is summarized in my written testimony. Ungoverned 
territories have also been a troublesome feature of the 
international landscape. They generate all manner of security 
problems such as civil conflict, humanitarian crisis, arms and 
drug smuggling, piracy and refugee flows. They threaten 
regional stability and security and generate demands on scarce 
military resources.
    After September 11th, we have also become aware of the 
potential of ungoverned territories to become terrorist 
sanctuaries, as acknowledged by the September 11th Commission's 
report, to which my friend and former RAND colleague Dan Byman 
was a major contributor. Ungoverned territories are a common 
feature of the international landscape, but not all of them 
become terrorist sanctuaries. So in our study, we analyzed the 
factors that make some regions more conductive to a terrorist 
presence than others. We found that a key requirement is the 
existence of a level of infrastructure that allows terrorist 
groups to perform certain basic functions, such as money 
transfers, personnel movements and so on.
    To the extent that a territory lacks this basic 
infrastructure, it is difficult for terrorist groups to 
organize and execute attacks. So there is a certain tension 
between this need to operate in a region that can sustain a 
certain operations tempo and the need to hide from the 
authorities and the international security agencies. Equally 
important factors include a base of support among the 
population, willing, of course, social or cultural norms that 
can be exploited by terrorists, sources of income and in many 
cases, strategic alliances with criminal networks.
    Based on our analysis of eight case studies across four 
continents, we found that ungoverned territories can be 
classified, broadly speaking, into three types, what we call 
cases of contested, incomplete and abdicated governance. In 
cases of contested governance, local forces, insurgents, 
terrorists or whatever, they actively dispute government 
control of a region in order to create their own state-like 
entity.
    In other places, we find incomplete governance. This is 
where governments lack the resources and competencies to 
project effective rule into a region. In other words, the 
central government may have the political will, but not the 
capabilities or resources to establish control. Some parts of 
Central America and Eastern Indonesia fall into this category.
    In the third category, abdicated governance, the central 
government abdicates its responsibility for marginal provinces 
and regions. In some cases, these authorities might conclude 
that extending control to certain peripheral areas is not cost-
effective. Or these areas could be populated by ethnic 
minorities with whom the central government shares little 
affinity, for instance, the tribal areas of Pakistan.
    Each of these three types of ungoverned territories 
requires a different set of policy remedies that address the 
fundamental sources of the lack of governance. For instance, in 
cases of incomplete governance where the central government has 
the political will but not the means to extend its control, 
policies emphasizing official development assistance, foreign 
direct investment and institutional reform are the best 
choices.
    In cases of abdicated governance, the effective approach 
would be to create incentives for the central government to 
establish a state presence. This assumes that the central 
government wants to increase the capacity of the state 
institutions. If, on the other hand, the governing style and 
methods of the ruling group are at the root of the problem, for 
instance, in the case of the Sudanese government actions in 
Darfur, then support for the group in power would be 
counterproductive.
    Where contested rule is the source of the trouble, a 
decision has to be made on either supporting the incumbent 
government or not. And that depends on a number of criteria, 
such as the strength and representativeness of the government 
and of the parties contesting its influence, the links of the 
opposition to international terrorism, if any, the 
effectiveness of the government response and what is the 
desired outcome from a U.S. perspective. A decision to support 
the government might lead to policies of counter-insurgency, 
foreign military assistance and financing and similar options.
    If on the other hand the central government is fighting a 
movement with substantial popular support and legitimacy, a 
negotiations track might be the best option. The Moro Islamic 
Liberation Front insurgency in Mindanao is an obvious case in 
point.
    The RAND study identifies more specific policy 
recommendations that address in detail these two sides of the 
question, first, what measures could be taken to help friendly 
governments expand their presence in ungoverned territories, 
and second, what steps could be taken to make it more difficult 
for terrorist groups to entrench themselves in these areas. The 
bottom line is that in our national strategy and defense 
planning, ungoverned territories need to be considered a 
distinct category of security problems and not a lesser 
included case of other challenges.
    By and large, we do not have the policy instruments 
optimized to deal with problems of ungoverned territory or we 
do not have these instruments in sufficient numbers. I would be 
happy to elaborate on any of these points in the question and 
answer period.
    [The prepared statement of Mr. Rabasa follows:]

    [GRAPHIC] [TIFF OMITTED] T1567.009
    
    [GRAPHIC] [TIFF OMITTED] T1567.010
    
    [GRAPHIC] [TIFF OMITTED] T1567.011
    
    [GRAPHIC] [TIFF OMITTED] T1567.012
    
    [GRAPHIC] [TIFF OMITTED] T1567.013
    
    [GRAPHIC] [TIFF OMITTED] T1567.014
    
    [GRAPHIC] [TIFF OMITTED] T1567.015
    
    [GRAPHIC] [TIFF OMITTED] T1567.016
    
    [GRAPHIC] [TIFF OMITTED] T1567.017
    
    [GRAPHIC] [TIFF OMITTED] T1567.018
    
    [GRAPHIC] [TIFF OMITTED] T1567.019
    
    [GRAPHIC] [TIFF OMITTED] T1567.020
    
    [GRAPHIC] [TIFF OMITTED] T1567.021
    
    [GRAPHIC] [TIFF OMITTED] T1567.022
    
    Mr. Tierney. Thank you very much, Doctor.
    Dr. Etzioni.

                  STATEMENT OF AMITAI ETZIONI

    Mr. Etzioni. Thank you, Mr. Chairman, members of the 
committee.
    I particularly bemoan the loss of Congressman Lantos, 
having a somewhat similar personal history. I started as a 
Jewish child in Nazi Germany. From there, I learned to become a 
member of the Jewish community in Palestine and engaged in 
terrorist acts to encourage the British to leave before they 
wanted to leave. So I gained some experience in the subject at 
hand. And finally, I joined what today would be called the 
Israeli Special Forces, though in my days they were called 
commandoes and I spent 2\1/2\ years.
    So I feel, I not only studied the matter for 40 years, but 
I had some experience in it. And my main topic for discussion 
is what I see as a major mismatch between the needed priorities 
and the distribution of resources. The point I want to make 
most, I did not set it up that way, but it so happened that 
nobody mentioned so far a connection between terrorists and 
nuclear weapons, which I think partly everybody looked at the 
subject, considered by far a greater threat.
    It does not mean that we don't have to worry about garden-
variety terrorists and regular attacks. But the best way I can 
quickly make my point is that you can be all in favor of 
putting seatbelts into cars and airbags and child seats, but 
realize there are going to be accidents. But you do not want to 
have a 100,000 car pile-up.
    So I think our first, second and third priority should be 
to avoid the connection between terrorists and weapons of mass 
destruction. That is not the way we are set up. If you think 
about it, as if we are dealing with three fronts, one is 
hardening the targets, so if we are attacked, the attacks will 
fail or will cause less damage. But the focus is, we have so 
many targets, so we are trying to protect nuclear plants, we 
are trying to protect dams, we try to protect bridges and water 
reservoirs. We have coastlines, there is almost an endless list 
of targets. And each one of them, for good reason, argues that 
we need to harden this target.
    But in the end, to put it bluntly, it is a bottomless pit. 
You read every week in the newspaper, the last one was about 
reactors, today some site, bridges not well protected. You 
could spend the GDP times three and still, in a free society, 
be subject to some low scale attacks.
    Let me just add one to the list and move to the second 
front. I must say I am not often speechless. I have many 
weaknesses, but that is not one of them. But I met the former 
commander of the Coast Guard, and he explained to me that there 
are about 2 million recreational vessels who leave the coast 
and go 7 days, whatever, deep sea fishing or touring. And they 
come back and they pass through no control whatsoever.
    So if we examine every suitcase and every nail clipper of 
somebody who comes into an airport, but those of you who did 
those boats, you go behind some other island and you meet these 
other boats from other countries and you exchange beers and 
fish stories and God knows what else. And you come back and 
nobody checks your passport or what's on your boat. This is 
just one more of the many examples one could give, that have 
been given, that make it so difficult to win this war by 
hardening the target.
    The second front, which I strongly cherish, is we are 
trying to get the terrorists before they get to us. We very 
much agree, there has been considerable success on this front. 
Unfortunately, and we must do that, the nature of the beast is 
for every one we kill, there are two others lining up. And so 
that is also not a way we are going to get a handle on the 
problem.
    We come then to a conclusion which the chairman referred 
earlier to be a positive, can-do society, with a kind of innate 
optimism, useful in that sense, which is very commendable and 
very difficult for to accept tragic conclusions. The tragic 
conclusion is that probably in the longer run we will not be 
able to avoid the kinds of attacks we have seen in Madrid and 
London. And at best, we can focus on taking out a city, turning 
it into a radioactive desert.
    Now, if you for a moment accept that the threat front, 
avoiding massive attacks, is the most important one, then you 
very quickly come to a list which fortunately is a do-able list 
of things which we can complete. So for instance, a Global 
Threat Reduction Initiative, which tries to convert reactors 
which have highly enriched uranium, which is the easiest to use 
to make nuclear bombs, into low enriched uranium or other means 
of energy; there is a limited list of places which have that. 
And we in effect may have already an inroad into them. And if 
we would put our resources and priorities to that program, we 
could in a reasonable time lick that part of the problem.
    The challenge in Russia is larger for reasons I don't have 
time to go into. But accelerating that part of the so-called 
[foreign phrase] would also serve. I realize there are many 
difficulties.
    The PSI is playing a major role which I think deserves much 
more attention and much more credit. In fact, as a model, the 
whole new kind of global architecture which combines a more 
muscular foreign policy with one which frankly, I don't lose 
sleep nights exactly over what the United Nations says. I will 
admit that, growing up in the Middle East, you don't think the 
United Nations is completely sacred. But Resolution 1540 
provides a blessing to the kind of things PSI does. So by the 
international game, it is not only muscular, but it is also 
legitimate.
    So I think we need to look more, its main purpose is to 
stop the trade and transport in nuclear----
    Mr. Tierney. For the record, would you just describe PSI, 
using its full name so we have that on the record?
    Mr. Etzioni. It is a Proliferation Security Initiative. It 
is an activity, not an organization, initiated by the United 
States, in which 60 nations voluntarily cooperate with the 
United States to prevent the transport of nuclear weapons and 
nuclear material. The kind of thing which brought the change in 
Libya, because they caught a ship on its way to Libya full of 
nuclear stuff and missiles and such. And that, in turn, was 
proof that he was engaging in a program of weapons of mass 
destruction. It was one of the factors. The other was the event 
in New York.
    And that was really one other point I would like to make. I 
think what we are calling for in the project is not inspection. 
The notion that you have to leave countries what should be 
called dual-use facilities, which can be used both for civilian 
purposes and to make nuclear weapons, and you are just going to 
inspect to ensure that they will not use them for military 
purposes, which is all we are asking from Iran at the moment, 
is a major mistake. Because the Non-Proliferation Treaty allows 
you to send a letter, North Korea did, and say, sorry, we are 
leaving, and 3 months later you take with you your toys, your 
fully developed nuclear plan and you make nuclear weapons very 
much in line with the treaty.
    So what we need is a delivery model. We pack the whole 
thing away and stop supporting terrorism. And that is the model 
we should have in mind. I think it is apparently in North 
Korea, it has not been yet applied to Iran.
    I don't want to go on, but the main point of this is, our 
system, which is profoundly democratic and pluralistic, by 
nature, responds to various constituencies, as it should. Each 
one of them feels that they have a mission which must be 
attended to. As a result, our national programs tend to have a 
patchwork quality. One of the great things you could do in your 
committee is step back from that a moment and look at the 
overarching distribution of resources and say, is it matched to 
the distribution of the threat. We cannot do everything, 
granted, and therefore, setting priorities is essential.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Etzioni follows:]

    [GRAPHIC] [TIFF OMITTED] T1567.023
    
    [GRAPHIC] [TIFF OMITTED] T1567.024
    
    [GRAPHIC] [TIFF OMITTED] T1567.025
    
    [GRAPHIC] [TIFF OMITTED] T1567.026
    
    [GRAPHIC] [TIFF OMITTED] T1567.027
    
    [GRAPHIC] [TIFF OMITTED] T1567.028
    
    [GRAPHIC] [TIFF OMITTED] T1567.029
    
    [GRAPHIC] [TIFF OMITTED] T1567.030
    
    Mr. Tierney. Thank you. I would just say that this is 
exactly a point that Mr. Shays, the ranking member, and I, and 
other members on this committee have been talking about. What 
we haven't done, Doctor, is what you recommend about pulling 
back and maybe having a hearing or series of hearings about 
whether or not those are matching up. I think that is excellent 
advice. Thank you.
    Dr. Byman.

                  STATEMENT OF DANIEL L. BYMAN

    Mr. Byman. Good morning, Mr. Chairman, Mr. Marchant, and 
other members of the subcommittee.
    My written testimony focuses on five aspects of U.S. 
counter-terrorism: the use of force, intelligence, homeland 
security, information campaigns and diplomacy. In my spoken 
remarks, I am going to only focus on a few of these aspects in 
an effort to keep my remarks brief.
    Let me first talk about one aspect of the use of force that 
in my judgment doesn't get enough attention, which is efforts 
to defeat insurgencies linked to Al Qaeda. This comes up from 
time to time when there are discussions about Afghanistan and 
Iraq, of course. But it is also a problem in Kashmir, Chechnya, 
Algeria, Pakistan and other places. It is not a secret that the 
most important military units for this are special operations 
forces. But what is neglected is a tremendously important form 
of the use of force, because it is not associated directly with 
military forces, which is police.
    One of the biggest challenges is dealing with areas such as 
Dr. Rabasa talked about: ungoverned spaces. In these areas, 
what you want to do is develop the rule of law, develop police 
and security forces, so a small group of terrorists is not able 
to form a large insurgency over time. That is an exceptionally 
difficult challenge.
    And far more important at the early stage than the military 
is the police. In fact, it is reasonable to say that if you 
have to call out the military in large numbers, you have failed 
already at the early stages. Unfortunately in our Government, 
no bureaucracy wants to embrace the mission of training the 
police. There are scattered programs in the State Department, 
the Department of Justice, the CIA, and the Department of 
Defense. But it is not at the core of any of these missions. As 
a result, the resources are not there and the high-level 
attention is not there.
    A second area that I believe needs attention is in homeland 
security. Right now, many of our analyses focus on worst case 
scenarios and don't consider the very real limits of our 
adversaries. Much of our spending is done without a formal risk 
analysis and it looks only at the consequences of a successful 
attack, rather than the likelihood of such an attack. The 
result is we waste a tremendous amount of money and also there 
are large opportunity costs.
    Right now, the FBI is focusing far less on gangs, on 
domestic terrorist groups like white supremacists and on the 
drug trade, even though these are extremely serious problems. 
Instead, we should do several things. One of the most obvious 
is that we should really try to think like the terrorists. And 
here, let me commend the work that the people at the Harmony 
project are doing. When we think about our own defenses, we 
need to think about targets that might resonate with the 
audiences that jihadists care about.
    There has been a tremendous amount of attention in Congress 
on port security. I have yet to see a credible plan by Al Qaeda 
to focus on blowing up or doing damage to a port. As a result, 
we put a lot of money into something that I believe could be 
better spent elsewhere.
    Also let me emphasize a point Dr. Etzioni made, which is 
that we can't and shouldn't defend everything. If we try to 
defend everything, in the end we are going to defend nothing, 
because all our defenses will be over-stretched.
    Another important part of homeland security, though, is 
perception management. Right now, there is a widespread public 
perception that the odds of dying from terrorism in the United 
States are quite high, when in fact, in reality, as we all know 
here, they are exceptionally low. Unfortunately, our public 
debate has made this worse, not better. A particular problem is 
distinguishing between true weapons of mass destruction, 
nuclear weapons and infectious biological weapons, and what is 
often lumped into this category, radiological weapons, chemical 
weapons and non-infectious biological weapons. These weapons 
are typically far less dangerous than explosives.
    At the same time, however, their psychological impact is 
much greater. The anthrax attacks in 2001 had a devastating 
effect on our country's commerce and public morale, even though 
the number of people killed, while their deaths were tragic, 
was relatively low. A constant Government message that 
reinforces the limited damage that these weapons cause would be 
exceptionally useful.
    A third part of homeland security is that the United States 
enjoys an overwhelming advantage over many of its allies around 
the world, which is a well-integrated, highly supportive, 
highly loyal American Muslim community. Any measures we take on 
counter-terrorism at home have to factor in that alienating 
this community would be disastrous. Many of the tips we have 
received on current terrorism that have proven valid have come 
from this community. If we lose the support of this community, 
we are in a far worse situation.
    I will conclude with some brief remarks about information 
operations. As we saw from the video, Al Qaeda has an extremely 
effective information campaign. One of my favorite little 
asides was in a recent bin Laden video. There was an al Sahab 
coffee mug, they have gone to the point of branding their 
various information technologies.
    We are nowhere near as sophisticated. And when we do 
counter-terrorism, in general our policy seems to be, we decide 
our policy and then pass it on to the people who do public 
diplomacy to clean up any messes that result, when in fact 
public diplomacy and information operations should often be at 
the heart of counter-terrorism, because it is psychological.
    Particularly important is going negative against the 
jihadists. They are exceptionally unpopular when you look at 
their agenda, whether it is their anti-democracy view, their 
view that many Muslims, including many practicing Muslims, are 
in fact apostates because they are not jihadists. Their 
deliberate targeting of women and children, these are unpopular 
views.
    But when the debate is about U.S. policy in the Middle 
East, whether it is Iraq or Israel, we are going to lose that 
debate. When the debate is about their activities, there we are 
going to win. Unfortunately, our information operations try to 
defend our policies much more than they put the jihadists on 
the defensive.
    I will conclude by noting that I welcome a hearing like 
this simply because I think there has not been a broad public 
debate on many of the more controversial or difficult aspects 
of counter-terrorism. To succeed in the next 25 years, we are 
going to need sustained policies that don't change 
administration by administration. And to do that, we are going 
to need widespread congressional support, as well as much 
broader public support.
    Thank you very much.
    [The prepared statement of Mr. Byman follows:]

    [GRAPHIC] [TIFF OMITTED] T1567.031
    
    [GRAPHIC] [TIFF OMITTED] T1567.032
    
    [GRAPHIC] [TIFF OMITTED] T1567.033
    
    [GRAPHIC] [TIFF OMITTED] T1567.034
    
    [GRAPHIC] [TIFF OMITTED] T1567.035
    
    [GRAPHIC] [TIFF OMITTED] T1567.036
    
    [GRAPHIC] [TIFF OMITTED] T1567.037
    
    [GRAPHIC] [TIFF OMITTED] T1567.038
    
    [GRAPHIC] [TIFF OMITTED] T1567.039
    
    [GRAPHIC] [TIFF OMITTED] T1567.040
    
    Mr. Tierney. Thank you. I want to thank all of you, I think 
those remarks were very enlightening and helpful to us.
    I am going to start the rounds of questioning, we will do 5 
minutes, and we may go more than one round, as long as the 
witnesses have time to accommodate.
    Colonel Meese, the battle against Communism was an 
existential threat to the United States. Do you see this 
terrorist situation as the same type of existential or a non-
existential threat?
    Colonel Meese. I think it is both. And in fact, the actual 
attacks that take place, whether it is Al Qaeda in Iraq, Al 
Qaeda operating out of bases in Pakistan or others, can 
reinforce the kinds of existential threat and ideological 
threat and garner greater support for particular actions taken 
and get more recruits, more funding, more finances. Al Qaeda 
exploits the kind of information, and I think that Dr. Byman's 
comments are exactly right on, they reinforce each other. 
Unless you go on the offensive, both in an information way as 
well as in a military operations, capture and kill those that 
are actually taking the terrorist acts, you lose half of the 
battle there.
    Mr. Tierney. Thank you for that.
    Dr. Rabasa, I was listening to your remarks and thinking 
about the different types of areas that need to be reclaimed. 
The policymakers at West Point, they argue that the strategic 
focus should not be aimed at prevention of ungoverned spaces, 
but rather denial of the benefit. Here is what they said: ``the 
massive troop deployment in Iraq has so far denied terrorists 
the use of that country as a staging ground for attacks in the 
West. Meanwhile, terrorists are denied the benefits of a 
potential Afghan security vacuum with 18,000 troops, while the 
Combined Joint Task Force Horn of Africa denies jihadists the 
use of Somalia and the rest of that region with only 1,600 
troops. In both cases, these deployments are far less resource-
intensive than would be required to actually end the security 
vacuum.''
    Do you think that the United States is actually taking 
these issues as they come up in Pakistan, in Afghanistan, in 
Somalia, in Sudan, or in Algiers, and looking into finding--
right now--as to what type of area are we looking at and what 
is our strategy for that area, or do you think we are still 
engaged in a one size fits all or just a totally reactive 
situation?
    Mr. Rabasa. Mr. Chairman, first let me say that I agree 
that denial of access and of the use of ungoverned territories 
definitely should be a key priority. In fact, our approach, the 
approach that we proposed, has two prongs, as I mentioned, one 
to help states and governments in establishing control. The 
territory might not be contested by jihadists, as in the case 
of the Colombian government, for example. Nevertheless we 
should, for other U.S. security reasons, support them in 
establishing control.
    The second part of the approach is to deny the jihadists 
the use of these territories for their own purposes. So we 
agree with the Counter-terrorism Center with that regard.
    We think that the root of the problem, from the standpoint 
of U.S. security policy, is that our planning documents, the 
strategic planning guidance, the security corporation guidance, 
for example, address certain specific issues, such as 
terrorism, international crimes, narcotics and so on. But they 
do not address the problem of ungoverned territories, which are 
the source of these other problems that are addressed by our 
policies.
    I think you mentioned earlier the need to drain the swamp. 
I think that is a great metaphor. We cannot try to kill the 
mosquitos, we need to drain the swamp in order to resolve the 
problem. So what we think needs to be done, and it hasn't been 
done in our policy planning process, is to make the problem of 
ungoverned territories, especially those that can be exploited 
by terrorists, a specific category of security problems that 
should be addressed specifically in the context of developing 
the force structure that is necessary to address these issues, 
the problems generated by ungoverned territories, the type of 
capabilities, for instance, the cultural sensitivity and 
language skills among U.S. Government agencies, so we can 
develop effective, comprehensive approaches to the problem.
    Mr. Tierney. Thank you very much.
    Dr. Byman, let me ask you a question. You talked about 
going negative, so to speak, on the Salafi jihadists. I think 
that sounds entirely reasonable. How do we break into their 
networks? How do we do that in a way that gets to the people we 
are trying to reach? I always think that is the toughest part 
about this whole Internet culture out there, you somehow have 
to break into it so that the network is out and the people that 
you want to hear your message hear it.
    Mr. Byman. I tend to divide the audience into three 
audiences. One is the broader Muslim community, and they are 
bombarding airwaves, radio and television, works reasonably 
well to a degree. The second is the broader Islamist community, 
including the peaceful Islamist community, where there you have 
to be more specialized. You have to look at particular 
publications, you have to try to impress particular sheiks and 
so on.
    The hardest one is the jihadist recruiting base, which are 
young males ages roughly 17 to 25. And there the Internet is 
tremendously important, especially when you are talking about 
Western Europe. One weakness, I think, of U.S. information 
operations in general is that they are TV and radio focused. I 
have a large number of students where the television and the 
radio are quaint devices to them, where everything they get is 
from the Internet. I think that is increasingly true around the 
world. We need to put a lot more effort into that.
    But also, this is something that we can encourage other 
governments to take on as well. Usually propaganda, which is 
the impolite name for this, is best done locally. Because 
different audiences will have a different understanding of what 
is going to play in their area. So encouraging other 
governments, not only at the State level, but also at the 
regional level, would also be effective.
    Mr. Tierney. Thank you.
    Dr. Etzioni, how do you rank or rate the U.S.' efforts so 
far to prioritize threats? I think you made good points on 
that. As I mentioned, we have been talking about that. Do you 
think we have an excellent chance, an excellent opportunity set 
up to do that? Are we not addressing it at all? Are we 
somewhere in between? And who is the appropriate agency, in 
your view, to do that?
    Mr. Etzioni. I think that is the greatest challenge we 
face. I believe it is a combination of appropriate committees 
in Congress and OMB. Because this is the place where the base 
piece is supposed to be prioritized and aligned, after the 
budget, is the tool through which we think through priorities. 
But given our pluralistic nature, it is just unavoidable. I am 
reminded of Churchill's famous line, it is the best some days, 
but it is also flawed; we have to be aware of the flaws so we 
can deal with it, is we respond to our constituencies. And I am 
not talking about the failures, lobbies. I am talking about 
people have, the people who produce helicopters really believe 
that if they produce more helicopters, it is going to save us, 
people who make sensors and so on and so on.
    Where is the force which can weigh against it and say: we 
need to look at the overarching studies. Honestly, I do not 
have to run for public office, my service is to call them the 
way I see them. I don't see the answer. I don't see where we 
have that body. So to the degree that you can in any serve 
that, you are doing the Lord's work.
    Mr. Tierney. Thank you.
    Mr. Marchant, you are recognized for 5 minutes.
    Mr. Marchant. Thank you, Mr. Chairman.
    Dr. Rabasa, the FATA in Pakistan is in one area where the 
terrorists are remaining and are likely plotting attacks, as 
you mentioned. Since the United States and Pakistan are going 
to go through a major leadership change in the next year, what 
would you recommend to these new leaders from both countries as 
to how to approach the border of Afghanistan and Pakistan?
    Mr. Rabasa. Sir, you have brought up probably the most 
intractable problem in terms of ungoverned territories in the 
world today. The problem with FATA transcends the problem of 
administrations in the United States and Pakistan. It is an 
area that has been outside of the jurisdiction of the Pakistani 
government for decades. As you know, the FATA is an area that 
legally is not part of the Pakistani legal system. It has its 
own legal code. It was administered by the British through 
political agents who then cut their own deals with the local 
tribal leaders and this system was inherited by the Pakistanis.
    So the Pakistani state never entrenched itself as an 
effective government in the FATA. It was very much left to the 
political agents and tribal leaders. What has happened there is 
that there has been a Talibanization of the region over the 
last 2 years, beginning with the agreements that President 
Musharraf reached with alleged tribal elders in the tribal 
regions, actually Taliban commanders. This agreement has really 
worsened the situation to a point where I see it very difficult 
to believe it, from a standpoint of any United States or 
Pakistani government. Because the agreement that was reached at 
the time was allegedly to permit local leaders to prevent 
attacks into Afghanistan by the Taliban and to prevent attacks 
by the Taliban into Pakistan. This in fact has not taken place. 
The FATA has become a platform, over the last 2 years, for 
attacks into Afghanistan and not only that, but it has 
spearheaded a process that I would call the Talibanization of 
the tribal regions, and even outside of the tribal regions into 
other areas of Pakistan. So there has been a worsening of the 
situation where the Pakistani government has no control of the 
FATA outside of certain military installations, where the 
Taliban and its Al Qaeda allies have entrenched themselves.
    Now, what could be done about it? I would propose the 
following to make the best of a very bad situation. First of 
all, there are two distinct elements involved in the insurgency 
and the situation in the FATA. There is the Taliban, which is 
essentially a Pashtun-based insurgency. And the Taliban itself 
is fractionalized. And then there is Al Qaeda, which is 
composed of first, an outer core around bin Laden, al-Zawahiri 
and their immediate followers. And also a combination of other 
foreign fighters, most Uzbeks and others.
    I would propose that the beginning of a strategy that might 
at some point bring the FATA under control would be to try to 
separate Al Qaeda from some of its Taliban supporters. If that 
could be done, it might be possible then to isolate Al Qaeda 
the way that Al Qaeda in Iraq has been isolated. Now, this may 
not be possible, because Al Qaeda and the Taliban have grown 
very close together over the past few years. However, working 
with the tribal elders trying to strengthen the authority of 
the tribal maliks, the Pashtun leaders in Pakistan to try to 
separate them somehow from the Taliban and from Al Qaeda would 
be the beginning of an effort.
    There is also a need for a greater sensitivity to local 
cultural and social norms. The Pakistani army, by and large, is 
composed of Punjabis. Punjabis are about 90 percent of the 
officer corps in the Pakistani army. They by and large do not 
speak the local language, Pashtun. They have no rapport with 
the local population. So there is a need to sensitize the 
Pakistanis to the cultural norm. I hope I am not being arrogant 
in saying this, but there is a need to try to establish links 
to buildup moderate leaders among the Pashtun tribal groups 
themselves. These would require a stronger military presence to 
try to prevent, of course, the coercion that is currently 
taking place in the FATA.
    I would say that money alone, military resources alone will 
not do the job, that much more is needed than that. An integral 
approach that would show the people in this region that their 
life has been improved through the exertions of the Pakistani 
government to improve attitudes and to try to isolate the 
fanaticals.
    Mr. Tierney. Thank you, Doctor.
    Mr. Marchant, we will have another round. I know you must 
have other questions as well.
    Mr. Yarmuth, you are recognized for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman, and thanks to all the 
witnesses.
    I want to pursue the psychological aspect of terrorism. I 
am curious as to, I don't think any of us wants to fully 
understand what goes in a terrorist's mind, but I am curious as 
to what, to the extent you can, what are the metrics that 
terrorists use to determine whether they are successful or not? 
They can blow up a building or blow up a subway and so forth, 
and that is the physical side. But in terms of the 
psychological warfare that they are engaged in, what are the 
metrics they use? I will let anyone address it.
    Colonel Meese. We have seen from some of their writings, 
and in fact, our report, Cracks in the Foundation, separates 
the planners who actually want to do destructiveness from the 
propagandists led by bin Laden and Zawahiri, where a lot of 
their measures of merit is both the destruction as well as the 
psychological impact of that destruction, both causing fear and 
reaction in the targeted audiences, whether that is in the West 
or in what they would describe as apostate states in the Middle 
East, as well as the number of additional recruits that they 
get, the number of additional funding that they get, the number 
of additional support that they get in Internet chat rooms and 
on forums like that. I think if they were to do measures of 
merit, it would be funding recruits, literally Internet hits on 
some 7,000 different jihadist Web sites, those kinds of things.
    Mr. Yarmuth. Does anybody else want to take a crack at 
that?
    Mr. Byman. I will briefly add. When the group's leaders, it 
varies tremendously by group and by location, some of them look 
at issues strategically, are they getting recruits, are they 
leading to a deterioration in the government and so on. But 
what is noticeable is that rather quickly, the struggle itself 
takes on its own logic within the group where yes, there is 
some emphasis on, are we achieving our goals, is the population 
going our way. But there is a strong desire for revenge that 
comes in as their members are killed or arrested. There is also 
a sense that this is what they know, this is their world, and 
it is hard to take them out of it. Often these groups dry up in 
some ways, because the core are arrested and recruiting stops, 
rather than the core give up in a more absolute sense.
    Mr. Yarmuth. I guess a followup I intended to get to is, 
how important are the reactions that they see in our society to 
what they do, and whether that relates to the money we spend in 
security, the official pronouncements of Government, any wy in 
which we might react, or any country that they are targeting 
might react?
    Colonel Meese. I think our reactions do matter. I think 
that is why Dr. Byman's comments, I also assist the Defense 
Science Board on IEDs, and it is managing things to the right 
of the blast, so to speak, of what happens after an attack in 
terms of perceptions management and ensuring that there is a 
measured and appropriate discriminate reaction to what happens, 
but not an overwhelming psychological frenzy as a result is 
particularly important. Greater information and greater 
understanding makes sense.
    In Iraq, and I have spent 6 out of the last 12 months over 
in Iraq working on General Petraeus' staff, that was part of 
what we did after any of the blasts in Iraq, was immediately 
demonstrate the barbarity of these kinds of attacks, that it 
was in violation of Islam to attack innocent civilians, 
especially as they got to softer and softer targets, so that 
you make a blast a propaganda failure for a terrorist, in that 
it violates what mainstream Islam is saying, instead of a 
victory in that it is going against either, in this case, the 
Iraqi government or whatever target they happen to be 
isolating.
    Mr. Yarmuth. I want to ask a specific question that relates 
to something the President said yesterday which disturbed, I 
think, a lot of people. The President of the United States, if 
he gets before a microphone and says that terrorists are 
planning an event that would make 9/11 pale by comparison, is 
that the type of reaction that terrorists might seize on as a 
measure of their success in provoking fear in society?
    Colonel Meese. Again, I think we have to be careful in 
terms of, it is important to have agencies, committees like 
this taking a look at the severity of things that could happen, 
but also making sure that the responses to that are specific 
and discriminate, and not feeding into the kinds of things that 
terrorists are doing.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Mr. Duncan, you are recognized for 5 minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    I really wasn't going to ask any questions, since I was in 
other meetings and didn't get to hear the testimony. I was 
glancing over some of the material and I noticed in the 
memorandum that we were given, it says, notwithstanding the 
vast U.S. counter-terrorism efforts since 9/11, our 
intelligence community recently reported an alarming resurgence 
and a strengthening of Al Qaeda.
    I am curious about that, because a couple of years ago, 
what I am wondering now, a couple of years ago I read a column 
by the conservative columnist Walter Williams that said, Al 
Qaeda had less than 3,000 members and they were mostly high 
school dropouts who lived at home with their parents. Then 
around that same time, I saw in the National Journal an article 
which estimated their strength at like, I think it was 1,800. I 
am wondering if any of you know, were those articles way, way 
off? What is the situation in that regard? Are we having a big 
resurgence or what is the situation? Colonel Meese.
    Colonel Meese. I will take a stab at it, then I will refer 
to some of my other colleagues that have studied this in a lot 
more detail. I think what has happened is specifically, some of 
those articles may look at hard core individual Al Qaeda proper 
or Al Qaeda central senior leadership. One of the aspects of Al 
Qaeda in the last several years has been that it has 
essentially franchised and the associated movements have moved 
out so that whether it is Al Qaeda in Iraq, whether it is the 
Al Qaeda cells that were involved in the Madrid bombings in 
Spain, those that claim affiliation with Al Qaeda in the London 
bombings, July 7th and other kinds of attacks, it has been a 
morphing of this. Which is why, again, going back to the 
ideological and information aspects of the movement, it is the 
global brand that Al Qaeda brings that is critical to being 
addressed, so that global brand is not something that 
affiliated movements would like to claim and stamp on what they 
are doing, but instead would want to shy away from and their 
supporters would shy away from.
    Mr. Etzioni. I think one needs to take into account that 
these are very low-cost operations. They don't require 
buildings and they don't require a large number of troops to do 
what they did on 9/11 or to put nuclear weapons on a speedboat 
and drive into one of our ports and such. So if they grow only 
from 3,000 to 6,000, that is a lot of trouble. As one of them 
put it, you have to be lucky all the time, I have to be lucky 
just once.
    In terms of the odds, the odds may be low, but a good 
calculation would include what the technicalists call the size 
of the dis-utility. In plain English, even if you have only one 
in a million chances to take out Chicago and you take out 
Chicago, it deserves our attention.
    Next, I think part of the answer to the question which was 
raised earlier, these are really very tribal societies. When 
they ally themselves with a tribe or with the Taliban or any 
other group, they become a very serious force. So for instance, 
that is what is happening now in Pakistan, where they succeeded 
in allying themselves, after all, we won the war in Afghanistan 
largely because we allied ourselves with some of the tribes 
against the others. One of the major reasons we are doing 
better now in Iraq is because we have the Sunnis to work with 
us rather than against us.
    So if you think about it in terms of not individuals, but 
tribal lineups, who lines up on our side and on the other side, 
as was just pointed out, the powers in Pakistan which border on 
Afghanistan, the tribes turn ever more against us and the 
Pakistani government, that is where the major danger lies. 
Technically, they may not carry an Al Qaeda postal service, but 
they are allies.
    Mr. Duncan. Let me ask one more thing. The staff wanted me 
to ask what should be the roles for Pakistan and other 
international partners. That reminded me and gets my curiosity 
too, because a few weeks ago I read in the Washington Post 
where all of the international partners in this entire long war 
against terrorism, all they have contributed is $15.4 billion 
and $11 billion of that has been in the form of loans.
    They are asking us to approve that much spending in 1 
month. As a fiscal conservative, these figures just astound me. 
What would you say about that? What are going to be the roles 
for Pakistan and these other international partners, and are we 
going to start getting some more help, or do these countries 
feel like these threats are so, these threats are just not as 
huge as they are to us? What do you say about that?
    Mr. Etzioni. Pakistan [remarks off microphone] causes 
[inaudible] guarded. But if you imagine for a moment that they 
turn to the service of the Taliban [inaudible] emphasize 
[inaudible]. I think partly everybody looks at it and sees that 
the No. 1, 2 and 3 major [inaudible]. So I don't see Pakistan 
in the near future, it is not so much [inaudible] but it is a 
major source of [inaudible]. If you compare what we [inaudible] 
this time [inaudible] many other [inaudible] send troops 
[inaudible] work would be [inaudible]. You need [inaudible] 
compared to the [inaudible].
    Mr. Duncan. Thank you.
    Mr. Tierney. Thank you, Mr. Duncan.
    We have a vote on the floor, it is actually just a motion 
to adjourn, a procedural motion on that. I am going to continue 
the hearing on, but Members who feel compelled to record their 
vote might want to take note of that. There is about 12 minutes 
left on that vote. We are going to proceed on here, at any 
rate.
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you. I want to thank the chairman for 
focusing this hearing and allow us to begin the process of 
stepping back, and I would like to thank the witnesses, I want 
to thank you as well, because you obviously all have begun that 
process. So let me just ask a few questions.
    Dr. Byman, one of the questions we have is what to do in 
Iraq is about the displacement of about 4 million people, 2 
million internally, 2 million externally. Are there specific 
actions that we could take to address that, not just from a 
humanitarian perspective, but from a security perspective?
    Mr. Byman [remarks off microphone.] Sir, I have fairly 
strong views on this for a number of reasons. Ignoring what I 
feel is a serious role for [inaudible]. Refugees----
    Mr. Tierney. Sir, is your mic on?
    Mr. Byman. I apologize. It is on now.
    Refugees can be an exceptionally destabilizing force. Right 
now, the Middle East is still dealing with the Palestinian 
refugee problem that was created 60 years ago. The Iraqi 
refugees, the numbers are staggering and they are going to 
places like Jordan and Syria that have very low capacity to 
deal with their own social problems let alone that of several 
million people. We need to have a program for our allies, in 
particular, to bolster their capacity to run refugee camps, and 
in particular to police them, to secure their borders so there 
aren't cross-border raids.
    I would add to that, we should be encouraging our allies 
and doing ourselves taking in far more refugees. What you don't 
want are large concentrations of refugees along the border 
there for what could be decades. That is an exceptionally 
dangerous situation and through policy, and a rather generous 
policy, we can minimize.
    Mr. Welch. Thank you very much.
    I want to ask each of you about Afghanistan specifically. 
There has been a lot of criticism about what we should have 
done and did we do it right and let's put that behind us. Given 
where we are, what is the goal that should be what we are 
seeking, namely right now, it appears as though we have the 
notion that with the proper amount of military, the proper 
amount of other resources, we are going to be able to build 
that nation into a stable society that will have then self-
governance and provide security and cooperation.
    Another alternative, I would think, would be to assess it 
from the perspective of what do we need to do there in a 
minimal way to protect American security and lives from further 
attack. Depending on how you answer that question, which we are 
not even asking around here, will give you a direction on your 
strategy. Colonel, how about you starting on that?
    Colonel Meese. Again, our expertise is not as much in terms 
of Afghanistan strategy, but to address the question, I think, 
the basic strategy is to enable the Afghan government, not 
ourselves, but enable the Afghan government to expand its 
control and its incorporation of more and more reconcilable 
groups that are supportive of what the Afghan central 
government is doing. In that sense, it helps establish and 
solidify, in fact, contain some of the people that are in the 
Federally Administered Tribal Areas in Pakistan from having 
deleterious impacts within Afghanistan proper and harming our 
interests.
    So it is really the spreading out of additional control of 
the Karzai government and reinforcing that. That is done in a 
variety of ways, through the provincial reconstruction team and 
other steps that have been taking place.
    Mr. Welch. Let me go to Dr. Etzioni and then Dr. Rabasa.
    Mr. Etzioni. I appreciate that, because on this issue, 
there is room, I guess, for different viewpoints. The very term 
Afghanistan is kind of misleading. We have this notion that it 
is a nation, and then we project on it kind of western concept, 
we talk about training the police, the national police. And I 
need to remind us that the United States doesn't have a 
national police. So the notion the Afghans are going to have a 
viable national police, as we see from the record, is a dream.
    These nations, they are created by arbitrary taking of 
tribes, running a line around them and saying, you are a nation 
now. We keep falling into this illusion where as the head of 
Afghanistan is jokingly called the mayor of Kabul, because he 
rarely dares to leave his town, and when he does walk inside 
Khabul, until recently he was protected only by Americans. And 
how he has three Afghans he can trust.
    So if we would recognize that these are tribal societies, 
the secret has been obvious, he is working with some of the 
tribes, dealing with those who will not want to stop terrorism. 
We call them warlords, we are trying to replace them with 
nationally appointed Governors. That is part of this fantasy. 
If you stop calling them warlords for a moment and call them 
tribal chiefs, and recognize that they have very, very sizable 
armies at their command, and they provide security for their 
territories. For instance, they have a tradition of assigning 
volunteers to patrol each village, and to the degree the 
confrontation becomes between the Talibans and their tribe's 
volunteers, then you naturally get the divide you want. The 
Talibans become isolated or limited to one or two tribes and 
the rest on your side.
    But earlier there was discussion of Pakistan. I asked the 
former head of the CIA there, there are seven tribes, it is not 
one tribe. And again, the notion of talking about them as if 
they were one group is again something we have to--we have to 
think tribal. Then I think we will get much closer to the 
reality on the ground. There are some unpleasant choices. These 
guys are not beautiful people and I wouldn't like to have them 
over for dinner or date my daughter. But initially, we have no 
choice but to work with them to establish elementary security. 
Then we can talk about all the other nice things.
    Mr. Welch. Dr. Rabasa.
    Mr. Rabasa. I will associate myself with what Dr. Etzioni 
said. In fact, it is not only seven tribes, they tend to be 
fragmented into sub-tribes and clans. It is very similar to the 
situation in Somalia, it is basically tribal societies, the 
tribes, the clans are the basic unit of society. So the 
authorities need to work with them to isolate the radical 
elements.
    What happens is that, when the tribes and the clans 
perceive an external enemy, they tend to unit, which makes it 
very, very difficult to deal with them in the sense of using 
military force. So there is a great need here again for 
cultural understanding, really understanding how this society 
works, and then working with the basic units of society to 
isolate extremist elements.
    Mr. Welch. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Van Hollen, you are recognized for 5 minutes.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank you for 
organizing this series of hearings and thank you all for your 
assistance.
    I think many of us in Congress were justified in being 
critical of President Musharraf for what is perceived to be 
lack of more aggressive action in the areas, Federally 
Administered Tribal Areas, and of course, the cease-fire 
agreement that I think our intelligence community unanimously 
agreed actually had allowed for greater resurgence. But I think 
we focused less on the Afghanistan side, and in fact, when 
President Karzai and President Musharraf were here in 
Washington some time ago, sort of pointing fingers at each 
other for the problem, I think many people sided with President 
Karzai.
    I have a question related to that, and it gets to the 
question many of you have raised with respect to the tribal 
politics in Afghanistan. There was a piece in the Washington 
Post Monday entitled, ``Two Myths About Afghanistan.'' It was 
by Ann Marlowe, who has been a long-time freelance journalist 
in the area. This is that she said about one myth. The first is 
that Karzai is a good president who looks after American 
interests. And what she argues in this piece is that ``It is an 
American illusion that Karzai is Afghanistan's bulwark against 
the Taliban or ethnic strife. In fact, the reverse is more 
likely.'' Her argument is that because he comes originally from 
the Pashtun area, which is the area of course dominated by the 
Taliban, that he actually has not been able to be as tough on 
the Taliban as we might want him to be, because he is focused 
on reelection. In fact, his margin of victory came from that 
area. In fact, he got a minority of the votes from every other 
area, whereas he got a majority from this particular region.
    So my question, and I don't have an assessment one way or 
another of this article, but I am interested because for so 
long we have sort of assumed, I think, here in Washington, that 
our interests have been not only aligned by Karzai, but that he 
has been successful, somewhat, in furthering and advancing 
those interests. I am interested in your assessment at this 
point in time as to whether or not that is being successful or 
not.
    Mr. Etzioni. It depends what you define as success. If you 
think that fair and free elections are a success, I think it 
was, I agree, it was moving, dramatic, to see the people of 
Afghanistan line up and get their fingers in ink and vote for 
the first time in their life in a free election. If you see the 
draft Constitution, it is kind of an odd creature, it is half 
Islamic and has some things written by advisors from the United 
States about human rights, and you see we have a constitution 
which has human rights, you get a plus.
    If you think that what you need is elementary security, so 
people can go to work without getting killed, and that 
terrorists will not find a haven, you will find that he has 
been appointed by the West, that people have been appointed in 
Afghanistan for, we can argue for a 1,000 years or 900 years, 
by outside forces. And they get immediately discredited, 
because they are not of us, they have been appointed by some 
foreign occupying force. And you come to a rather different 
conclusion.
    I believe that you have to have basic security before you 
can have a stable society. Then there is room for building a 
civil society and democracy. I think Karzai cannot deliver. If 
you think about what he has at his command, as compared with 
the Dutch troops being ordered not to shot and the German 
troops ordered to fight only on Mondays and concentrate 
themselves in the area where there is no fighting, what does he 
have to put against the very committed Talibans, of course, our 
forces. But our forces are not at his command. So he doesn't 
have what it takes to deliver.
    I will go back to the point, we need, sadly, to look at the 
tribal chiefs and those who are loyal to them if you want to 
build a real coalition. They are not supportive of him. Given 
more time, I could quote you tribe by tribe by tribe, what 
happened to Mr. Khan as he was moved from tribal chief to 
Khabul to become a minister. To the degree that we are not 
allowing the tribes to be the major players, we are just 
undermining our purpose.
    Mr. Rabasa. I will just add that I think it is a mistake to 
focus too much on personalities in terms of our policies toward 
not only Afghanistan, also Pakistan. I don't know that anyone 
else would have done any better than Karzai in Afghanistan. 
Maybe he is the best there is.
    I don't think that we should have expected that Musharraf 
could effectively deal with the problems in the frontier 
regions of Pakistan, given the limitations of his political 
support, so that again, if there is an answer here, it is to go 
beyond these individual leaders and try to help develop a 
social consensus in both Afghanistan and Pakistan against 
extremism. It is not a matter of tribes in Pakistan. Outside of 
the tribal areas, Pakistan is not a tribal society. It is a 
question of a social consensus. I think this could have been 
developed in the context of a democratic election. The 
assassination of Bhutto was a tragedy, because it really closed 
down an option of a popularly elected government with a 
substantial popular base that could have been taking effective 
actions against the extremists.
    This is in my view the only effective response to the 
dynamics in these two countries.
    Colonel Meese. If I could just briefly answer, and put that 
article or op-ed piece in the context or the theme from this 
hearing, which is approaches toward terrorism. That article 
kind of reflects some of the problems that we have in that 
Karzai is either for us or he is against us. And we try to make 
black and white distinctions between them. What we, from my 
experience in Iraq and reading experiences of others in 
Afghanistan, there are many more shades of gray in between. And 
what you find is the irreconcilable elements that are on the 
very most extreme edge that the Talibans who subjugate women, 
who have forced marriages, who chop off fingers for smoking and 
those kinds of things, everybody will condemn, or a majority of 
the mainstream will be able to condemn.
    And we ought to exploit that and those reconcilable 
elements that will not necessarily agree with 100 percent of 
all of the policies that we do, but will be ones that are, 
tribes that are in, for lack of a better term, the gray area in 
between, that will turn against the extreme terrorists and may 
not be exactly our models of Jeffersonian democracy, but are 
ones that we can work with. That is the kind of environment and 
the kind of reconcilable elements that I think we need to focus 
on.
    Mr. Tierney. Thank you very much.
    I have just a couple of questions, if you gentlemen have 
time on that. One is, the mention of the importance of police, 
even sometimes as opposed to military people, in an area like 
this, seems to make a lot of sense. But we don't put a lot of 
emphasis on that within our Department of Defense, or our State 
Department, or elsewhere. We don't promote people as readily if 
they are involved in training as they might be if they are 
involved in combat. Would you gentlemen or whoever feels that 
they want to comment on whether or not it would make sense to 
have some multi-national group undertake that particular 
mission as opposed to a particular country like the United 
States trying to resolve that issue?
    Dr. Byman, do you want to take a stab at that?
    Mr. Byman. I will take a first stab, at least.
    There is a good and a bad to a multi-national approach. The 
good is that as was mentioned, the United States does not have 
a national police. In fact, we are not used to thinking of 
paramilitary forces, police that are exceptionally well armed, 
that are used to dealing with more than low level violence. A 
number of our allies around the world have forces that are 
equipped and have the mind set for that.
    The bad though is that if it is multi-national, it is 
almost certainly not going to get the resources or the 
bureaucratic attention it deserves.
    Mr. Tierney. That is the same problem we have with our own 
effort.
    Mr. Byman. Absolutely. I would actually say even worse, 
where needless to say, we as a country can, if there is 
Presidential leadership and congressional pressure, we can push 
a bureaucracy in the right direction. Much harder to do with a 
multi-national effort.
    Mr. Tierney. That makes sense. Thank you.
    Colonel Meese, you talked in your paper about agency 
problems that were confronting Al Qaeda. Can you elaborate a 
little bit on that for me? You said Al Qaeda had agency 
problems that we might exploit.
    Colonel Meese. Yes. The challenges within Al Qaeda is they 
are similar to other organizations in that the principles that 
are leading Al Qaeda can't effectively monitor what the agents 
do. So the principal agent problems, as they are described 
particularly in our first Harmony report, indicates that they 
have the kind of levels and organization problems that can be 
attacked and exploited.
    For example, going after finances, going after contracts 
that they are establishing with individuals, and interrupting 
their ability to monitor their fighters that are actually 
carrying out the policies as they are going through. For 
example, attacking middlemen that are transporting either 
supplies, material and especially money, which is extremely 
lucrative. There is a lot of experienced, knowledgeable, 
somewhat older middle people within the Al Qaeda organization 
that are in this for a longer period of time that are 
attempting to profit from it, being able to exploit their 
profit-oriented motives so that Al Qaeda in the long is not 
effective.
    Mr. Tierney. Thank you. [Remarks off microphone.]
    Mr. Etzioni. I am not sure exactly what ungoverned spaces 
are. But we sometimes talk about a failing society, so there 
was an effort in Bosnia to turn it around, though that was a 
British mandate which devoted enormous resources for 9 years to 
try and turn Bosnia around. But again, their image was to turn 
Bosnia into a British society. He wanted civil servants who 
were not corrupt, he wanted ethnic groups to stop fighting each 
other. Asherton [phonetically] had this clear notion, he 
brought 900 Brits there, tried to change practically every 
aspect of their Bosnian society. God can do it, but nobody 
else.
    The same thing in Kosovo. We had this idea we were going to 
create a multi-ethnic society. My favorite short story is that 
one of the USAID people said, we are going to make a gun-free, 
dark-free society. That is something we don't have a lot of 
experience with. So the notion that we can go and turn Kosovo 
into some kind of a wonderland. So what we have to get closer 
to the ground, you talk about training police. We sometimes 
mean, people are not corrupt, or ethnically sensitive, who know 
the constitution by heart. There are very high standards. It is 
just very difficult to get people who have gone in a culture, 
gone back to their homes from a different culture to make such 
huge jumps.
    So I think, to put it in a sentence, being a sociologist, 
if it becomes sociologically more real, I think we will have 
more success.
    Mr. Tierney. It seems fairly obviously that we are not 
going to be able to send 160,000 troops and 180,000 contractors 
into every area that we think is troubled on that. So we are 
going to have to have a significant amount more cooperation 
with other countries and their background. Would you like to 
comment on establishing foreign liaisons, particularly in 
intelligence areas, and how this differs from the cold war in 
terms of what we can share and what we should be sharing, or 
should we have the same reluctance to share that our 
intelligence people exhibited during the cold war phase?
    Colonel Meese. I will take a couple of very quick comments 
on it. I think that there are some models that work. One that I 
think would be instructive to take a look at is the U.S. 
leveraging the Georgian forces that are currently in Iraq, 
where for a reasonable amount of security assistance funding, 
the Georgians have been fairly robust in terms of their support 
for individuals with two brigades that are currently serving on 
the Iranian border in Iraq and are being fairly effective in 
that regard.
    Things like that, and having worked in Bosnia with the 
Guardia Nacinoal from Spain, the Caribinari, those are very 
effective forces and actually, from a U.S. taxpayer 
perspective, are probably, if there is some kind of a cost-
sharing or burden-sharing arrangement, a fairly thing to use. 
Related to that, Bosnia is another good example in that there 
were national intelligence centers from each of the different 
countries in Bosnia that were represented in Bosnia.
    So I remember taking from the U.S. national intelligence 
center intel that would then be able to go over to, of all 
places, the Romanian National Intelligence Center, and share 
those effectively. I think the intelligence community has done 
a good job with what they call in the trade, tear lines, where 
you can have some part above the tear line that is only 
releasable to certain allies, and the stuff below the tear line 
is releasable more and more to our intelligence agencies, can 
be much more widespread with the kinds of things that can be 
shared with allies without divulging sensitive sources and 
methods. That I think is particularly important.
    Mr. Rabasa. Just a couple of quick comments, Mr. Chairman. 
I am not aware that any international organization has a 
comprehensive approach to ungoverned territories. But there are 
cases of international cooperation, especially in Africa, where 
there have been some Nigerian-led missions to Sierra Leone 
during the civil war in that country, for example. Today there 
is the African forces mostly from Uganda in Mogadishu, as 
another example.
    Most of these, many of these ungoverned territories have 
occurred on border spaces, and border regions. In fact, that is 
almost universally the case, because these are generally in 
hospitable regions that lend themselves to the presence of 
insurgent groups that operate on both sides of the border. So 
by their very nature, a lot of the problems generated by 
ungoverned territories are international, which means that they 
call for international cooperation.
    So it would make a lot of sense, and we make that 
recommendation in our study, first to mobilize regional 
organizations to the extent that is possible, for example, the 
African Union, the Organization of American States, etc., to 
play a positive role in restoring some sort of order within 
these territories.
    Second, where international organizations are not 
appropriate, ad hoc coalitions could work. But this very much 
has to be done on an international cooperative basis.
    As far as intelligence cooperation is concerned, one of the 
things that I have found is that some small countries have an 
excellent, excellent intelligence capability within their own 
regions. For example, I was last year in the Horn of Africa and 
some parts of former Somalia. I found that Djibouti on what is 
happening in the former Somali, maybe better than ours, as far 
as I could say. Singapore has very, very good sense of what is 
happening in Indonesia and other parts of Southeast Asia.
    So we certainly do benefit from relationship with the 
intelligence agencies, especially small, vulnerable strategic 
countries that have a larger stake in what is happening in the 
broader region. One of the problems that I was told, and I 
won't mention any country specifically, it specifically said 
yes, there is intelligence liaison and intelligence sharing. 
But sometimes we take too long in making the information 
available to them. So that by the time we get it, it might not 
be actionable.
    So I was told by the chief of intelligence of a country 
that again, I won't mention, that please do everything you can 
to tell people back in Washington that try to make this 
information sharing more timely.
    Mr. Tierney. That was the concern I had, was that we are 
still under the cold war type of mentality of not sharing it 
until we don't think it is relevant any more, and then sharing 
it all we want. It seems that terror is a different sort of 
animal that we are dealing with here, there shouldn't be that 
many bars to sharing.
    Mr. Yarmuth, if you have further questions.
    Mr. Yarmuth. I just have one line of questioning I want to 
pursue. Forgive me if it was discussed while I was over voting. 
But dealing specifically now with counter-terrorism in the 
sense of going after terrorists and stopping them, and I guess 
this is mostly addressed to Colonel Meese, do we have all the 
skill sets that we need to effectively pursue that activity, 
and do we have any structural problems that you might have 
recommendations for as to how we might better organize our 
counter-terrorist activities? Anybody can answer. But I thought 
I would direct it to you first, Colonel.
    Colonel Meese. Probably better off talking to more senior 
folks in the Army staff to look at Army structural problems. 
But I think some of the advances that we have made, for 
example, there is a substantial, just for example at West 
Point, we have substantially expanded the language instructions 
so that for most of our majors, they are going from 1 year of 
language to 2 years of language. And thanks to support from the 
Congress and others, 140 cadets are spending a semester abroad 
out of West Point during their junior year, which had never 
happened before.
    When I was a cadet during the cold war, we had 20 
international students, and that was the total limit of 
international interaction that we had. We now have 60 
international students that are there for 4 years. And that 
will change, I think, in the long run, the cultural 
sensitivities, the approach that individuals will take, 
obviously the language proficiency that they will have, having 
spent time in Egypt studying and in Morocco studying, in China 
studying, in countries of the former Soviet Union studying. 
That will be very helpful.
    So I think structural changes, in terms of crafting the 
people that we will have, because I don't know what technology 
we will have, I don't know what organization we will have 15 
years from now. But I know what Major or Lieutenant Colonel 
will have, because he is the cadet that I am teaching today.
    Mr. Rabasa. With regard to my area of concern on ungoverned 
territories, we do of course need different force mixes to deal 
with the problems generated by these areas. We do make a 
recommendation in our report that in addition to the useful mix 
of combat and combat support units that we have that what is 
needed is forces optimized to restore order and also for civic 
actions, such as civil engineers, military police, medical 
units capable of providing public health services, civic 
affairs personnel with expert, people with expertise in 
infrastructure, construction support personnel and so on.
    And this by the way seems to be the focus of the Balikatan 
[phonetically] of 2008 exercise in the southern Philippines 
which begins on the 18th of this month, where the focus has 
been shifted from the usual type of combat training to the type 
of civic action that I just mentioned. And more of this is 
needed.
    Mr. Byman. If I may chime in, one additional problem we 
have with our Government is that the security clearance process 
is broken. This is not a secret. Study after study has shown 
this and it has shown it for 20 years. But it still takes many 
people years to get in. And it is exceptionally difficult, 
frankly, the more you know and the more you are involved with 
foreign cultures, if you are from a family of immigrants and 
you have relatives overseas, it is going to take forever. 
Ironically, these are the people who would add the most, in 
particular, to our intelligence services but also to our 
diplomatic services. That is a tremendous problem.
    Mr. Etzioni. I don't know to what extent you can conduct 
additional sessions like this, but if you can, I would suggest 
that you consider having one on this idea of reconstruction. 
The notion that we can go into a country and--reconstruct by 
itself is a little bit of a complicated phrase. Because 
Afghanistan was never constructed. So to reconstruct it is 
quite a challenge.
    But there is a notion, there are a variety of ideas how to 
do it that I don't want to go into now. But just to flag the 
topic that people think that they can get goodwill and win the 
hearts and minds by handing out candy and soccer balls, well, 
all you have to think about is your own firmly established 
beliefs and your peers and you see that this is just not going 
to work. We then talk about building wells and roads and such, 
and there's absolutely no reason a village in a part of 
Afghanistan will not be happy to take the well and the road. 
But then come the Taliban, and that will not general sufficient 
loyalty.
    So what works and doesn't work in reconstruction deserves 
some really very, very serious and difficult question. We have 
a lot of experienced in it, but we tend to be, again, on the 
overly optimistic side.
    Mr. Tierney. Thank you.
    We do have some hearings coming up with respect to the 
reconstruction efforts, targeted for Pakistan. Questions about 
whether or not they could be effective, whether or not there is 
any accountability going to be there for the money, how it gets 
disbursed. We may have some assurance it actually gets to work 
for what is intended and what the results are on that. So it is 
an excellent idea. Thank you yet again.
    Mr. Lynch, do you have any further questions you would like 
to ask?
    Mr. Lynch. I do, Mr. Chairman, thank you.
    Mr. Tierney. You are recognized for 5 minutes.
    Mr. Lynch. Thanks for your good work on these hearings. One 
of the things that bothers me is that when you look back, a lot 
of the major attacks against the United States, the 9/11 
attacks obviously, but also attacks against the embassy in Dar 
Es Salaam and the attacks in Nairobi, Kenya, the attacks 
against the USS Sullivan, the attacks against the USS Cole, 
these were all centrally controlled and planned by Al Qaeda. 
They were done so at a period when they had a safe haven in 
Afghanistan, during that era. And now in retrospect, with all 
the research that has been done, we see how it took them a 
while to do it and that safe haven status gave them great 
flexibility to get these things done.
    What I fear now is that we are seeing a safe haven develop 
in the Federally Administered Tribal Areas and in parts of 
Pakistan now. I know that the chairman and a lot of the members 
in this committee, including myself, have spent a lot of time 
up there in the Afghanistan-Pakistan border area, that Dr. 
Rabasa has talked about.
    And I know, I am going to set aside the logistical problems 
with my question, from a military standpoint. But from a 
political standpoint and I guess a long-term view, what would 
be the consequences if we were to decide that a concentrated 
but a significant military intervention in Pakistan and the 
Federally Administered Tribal Areas was necessary? What do you 
think, now, put aside the logistics for now, what would the 
response be politically? And like I say, in the long-term view, 
what would happen there? Dr. Rabasa, since you have addressed 
this in your remarks, perhaps you could have first crack at it.
    Mr. Rabasa. Yes, thank you, sir.
    First, I don't believe that Al Qaeda ever lost some level 
of central command and control over operations overseas. 
Because if you looked at all of the British attacks, actual and 
potential, that have taken place since 2003, there is always a 
connection back to Pakistan.
    Mr. Lynch. Just to be clear, though, it was hands-on in the 
early attacks, very complicated.
    Mr. Rabasa. Yes.
    Mr. Lynch. A bunch of guys getting on a train with a 
backpack and a cell in either Madrid or Mumbai or London, that 
didn't, in my mind and in my research, didn't reflect the type 
of complex planning and long-term planning that Al Qaeda 
engaged in in all those other attacks.
    Mr. Rabasa. No, not the same level of planning by any 
means, but some level of connectivity was always there and some 
level of training was always there. But you are right, not with 
the same complexity.
    As far as the main part of your question, what would be the 
consequences, I believe that the consequences of a direct U.S. 
intervention in the tribal areas of Pakistan would be 
disastrous. Because Al Qaeda's strategy is really to reach down 
into local insurgencies and to incorporate those insurgencies 
into the global jihad. To the extent that they can do that, and 
they have done it to some extent in Pakistan, they are 
successful. To the extent they fail, as in Mindanao, then their 
strategy fails.
    If we were to intervene directly in Pakistan, in my 
opinion, what that would do is that would enable Al Qaeda and 
the Taliban allies to mobilize national sentiment against us. 
We would be invaders in the Muslim country, it would validate 
their narrative [phonetically] of Muslims under attack. We 
would not be likely to receive much support from the local 
population.
    So therefore, the adverse consequences of that I think are 
much more likely than any positive outcomes of if we were 
directly involved in the fighting in Afghanistan, and we had 
not been able to eradicate the Taliban and its Al Qaeda 
associates. So the struggle against this type of activity has 
to be done, I think, to the extent possible through indirect 
means by empowering local governments and moderate sectors to 
fight the extremists. But our own involvement, I think, would 
have counter-productive consequences.
    Mr. Lynch. OK. Thank you.
    Colonel.
    Colonel Meese. I would generally agree with that, and so 
consequently, then, what do you do. I think part of it is to 
the extent that you can, containing the influence that they 
have within the Federally Administered Tribal Areas by again, 
supporting local governments, reducing the effect that they 
have, impeding to the extent that it is possible working with 
partner governments, travel, interdicting financial flows in 
and out is another aspect of it, as well as countering the 
ideology and the messaging that is out there in sewing seeds of 
dissent. Because again, as has been previously mentioned, it is 
not monolithic tribes. There are different subsets of those 
tribes. And having disagreements among themselves will probably 
be far more effective than doing the one thing that would unite 
them, which is intervening directly.
    Mr. Lynch. Dr. Byman.
    Mr. Byman. I strongly agree with that. Unfortunately, in 
Pakistan, that is where good policy options go to die. There 
isn't really a chance of direct intervention, I think, because 
it will produce exactly the reaction that we want to avoid, 
which is bringing people together against us.
    I think the best means would be to step up covert action to 
try to work as much as possible at the local level, recognizing 
that, frankly, we are lying down with dogs and there are going 
to be some unpleasant things that happen when we do that.
    Mr. Lynch. Thank you.
    Dr. Etzioni.
    Mr. Etzioni. I very much agree with what has been said, and 
I will not repeat it. I just want to add a sentence. In our 
dealing with Pakistan, we kept emphasizing limiting terrorism 
and not equally limiting the distribution of nuclear weapons. 
So for instance, when we caught what was called the nuclear 
walnut, we allowed the Pakistanis to basically disregard it, 
giving the gentleman a kind of symbolic punishment and such. We 
didn't make much of an issue out of it, because we kind of 
tried it, curbing the spread of nuclear weapons, with more 
efforts in the tribal areas.
    I think our priority should be exactly the opposite. Our 
No. 1, 2 and 3 priority should be sure that the technological 
know-how, the instruments of nuclear weapons are not spread 
from Pakistan to other places, and that the nuclear weapons in 
Pakistan are not going to reach in the hands of the Taliban. 
Everything else should be traded against it.
    It doesn't take away from anything else that was said, I 
just wanted to add that.
    Mr. Lynch. Thank you.
    Mr. Chairman, could I ask one more question?
    Mr. Tierney. Certainly. Go ahead.
    Mr. Lynch. We got a chance, a number of us, to get up to 
Peshawar and then fly up to the northwest provinces. We met 
with General Khazak, who heads up that frontier corps. And he 
was telling us that in many cases, in the Federally 
Administered Tribal Areas in north and south Waziristan, you 
have some family members, same family, same tribe if you will, 
that were working for the frontier corps and then other members 
of the family actually working with Taliban and Al Qaeda. They 
explained to me, some of these family members, that if you work 
for the Pakistani government, you get paid about $240 a month. 
And the pay was not consistent, it was every so often you would 
get paid. But the folks with the Taliban and Al Qaeda were 
getting about $300 a month, and the pay was fairly regular.
    Apart from the resource issue, there is the loyalty issue. 
It is very mixed up there, where they are playing footsie with 
each other. I honestly feel like Musharraf in a way is gaming 
us. There is this truce and then there is not a truce, there is 
a war against them and then there is not a war against them. 
What is the best policy for us to take? I think there is a lot 
of duplicity here going on. I think that President Musharraf's 
position is very difficult, no question about it. I don't know 
what the hell I would do differently if I were him.
    Mr. Tierney. The question is, what is the best policy. does 
somebody want to take a stab at that? Nobody?
    Mr. Byman. I will give a view, but I suspect I may be in 
the minority among our group here. I think we missed an 
opportunity to move Musharraf aside when Bhutto had returned to 
Pakistan. If I were testifying 3 years ago, I would have said 
that standing by Musharraf is our best option, because we are 
getting day-to-day counter-terrorism for the most part, not 
ideal, but we are getting it significant, and there is a degree 
of stability.
    Both those statements no longer hold today. Every 6 months, 
it seems another significant part of Pakistan is unstable. 
Every 6 months it seems that counter-terrorism cooperation 
degrades yet one more level. So to me, the benefits, if you 
want to call it that, of working with a dictator, are no longer 
there. While there is a legitimate democratic movement in 
Pakistan, it might be corrupt, it is not ideal, but it is 
legitimate.
    Mr. Lynch. OK, thank you. Doctor.
    Mr. Rabasa. The relationship between the Pakistani 
government and the other forces and the intelligence services 
and extremist groups in Pakistan is complicated. There are 
clearly links between retired general officers in the Pakistani 
army, the intelligence service in particular. And not only the 
Taliban, but a number of extremist organizations that operate 
very freely in Pakistan. These are Kashmiri jihadist groups, 
Lashkar-e-Taiba, for example, they change names because they 
get banned and then they resurface under a different name. They 
maintain links with these people, so it is very difficult to 
know what is the real attitude, if in fact it is at all 
possible to determine what is the real attitude of authorities 
in Pakistan and within the Pakistani intelligence service and 
these other groups.
    That makes our developing policy toward Pakistan very, very 
difficult, because basically I think they are straddling both 
sides of a fence. On the one hand, they do occasionally capture 
some Al Qaeda personality and hand them over. On the other 
hand, let me tell you a story. We did a story of the Waziristan 
region about 3 years ago. There were sources that we had in 
Waziristan and one of the sources went to the border region 
between Pakistan and Afghanistan. He saw a truck with some 
Taliban members and the truck would come from Pakistan across 
the border, would take some potshots at the Afghan government 
groups on the hill, and then when across the border, the 
Pakistani border troops did not stop them.
    Then he asked the people at these outposts, well, you know, 
what is going on? They said, well, you know, we don't have any 
orders to stop them. What was clear from that and many other 
examples, there was a policy at the time that the Pakistani 
government would take action against clearly Al Qaeda and 
foreign fighters. So that if you were an Uzbek or an Arab or a 
Chechyan, you were fair game. If you were a Taliban, that was 
another question. So they did make that distinction. And I am 
not sure that the policy has changed.
    Now, they have been beaten with the agreements that they 
made in 1995 and 1996 because they turned out to be quite 
counter-productive from their point of view. But there is still 
a great deal of ambivalence. After all, the ISI created the 
Taliban. This was hatched against Indian influence in 
Afghanistan. And those ties, I don't think, have gone away.
    Mr. Tierney. So none of you have the complete answer here, 
we are all upset. [Laughter.]
    Thank you for your comments on that.
    Let me just wrap this up, because I want to let you 
gentlemen go by noon time here, and Members seem to have asked 
the questions. The response to Mr. Lynch's question about 
sending armed forces into the areas of Pakistan seems to beg 
the question, why do we think that would be anything less than 
disastrous to send U.S. forces into ungoverned areas in 
Afghanistan, Helmand province or other more remote areas? Why 
wouldn't that be just as problematic as sending them into FATA 
or the northwest territories?
    Mr. Rabasa. If I may give you a quick answer to that, of 
course we were in Afghanistan because of Operation Enduring 
Freedom. Historically we went there to fill the vacuum together 
with the Afghan government that had been created by the 
overthrow of the Taliban, and we did not have a choice.
    In Pakistan, one has to keep in mind that there are two 
separate issues involved, they are related but separate. On the 
one hand, there is the problem of the frontier region, of the 
Pashtun, of the Taliban, others, Al Qaeda sanctuaries on the 
border. Then there is the problem of the trajectory of Pakistan 
at large. Let's not forget that the Pashtuns and the frontier 
region are less than 10 percent, maybe 5 percent, of the 
Pakistani population.
    It is of great importance to what happens in Pakistan at 
large and if we were to intervene directly in the frontier 
regions of Pakistan and even if we were to be successful in 
seeking to eradicate the Taliban groups and extremists there, 
we need to think about what would the consequences be for the 
rest of Pakistan, which is as you mentioned, where the nuclear 
weapons are. The Taliban is not likely to capture these 
weapons. They are very well-guarded, they are dispersed.
    But what happens if as a result of our intervention 
Pakistan becomes radicalized? At the moment, I don't see a 
great prospect of an Islamic revolution in Pakistan. This is 
not Iran, it is a very different country. If we were to 
intervene, I think all bets would be off. I think that would 
improve the chances----
    Mr. Tierney. I don't want to cut you short, but I think we 
all understood that. The question really was, though, how do 
you distinguish from not using troops in Afghanistan? If it is 
not a good idea to use them in areas like that in Pakistan, 
then what is the distinction with Afghanistan?
    Mr. Rabasa. We are there of course with the permission of 
the Afghan government. Although if you were to ask me, I think 
that we should have let the Afghans themselves restore control 
in their country after Operation Enduring Freedom.
    Colonel Meese. Just very briefly, I would say the costs are 
higher because we have already had the negative reaction there. 
And to whatever extent the unification of the Afghans against 
us has already taken place, the costs are relatively lower. The 
benefits are higher in that we have a relationship with the 
Afghan government, and I would presume that depending upon the 
situation it would be in that context that we would be 
deploying.
    And we would also be deploying force in conjunction with 
the other elements of power that are already there, coordinated 
by the provincial reconstruction teams. So that would be three 
distinctions that I would immediately see.
    Mr. Tierney. Thank you. I want to thank all of you 
gentlemen, I know we took up a lot more of your time than you 
probably had figured on. We benefited greatly from it.
    Mr. Platts, these gentlemen have been here for 2 hours now. 
Would you like to ask a 1-minute question of them?
    Mr. Platts. Not a question. I just want to thank them for 
the written testimony and for coming to be with us today. Mr. 
Chairman, my apologies, I could not be here with you.
    Mr. Tierney. That is fine. All of your written statements, 
by the way, will be admitted into the record by unanimous 
consent. So thank you all once again very much for all that you 
have helped us with and continue your good work, please.
    [Whereupon, at 12 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
